 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 PROVIDENCE PORTLAND MEDICAL
  CENTER INCORRECTLY BILLED
MEDICARE INPATIENT CLAIMS WITH
        KWASHIORKOR


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Stephen Virbitsky
                                                Regional Inspector General
                                                    for Audit Services

                                                      September 2014
                                                       A-03-13-00034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
 Providence Portland Medical Center incorrectly billed Medicare inpatient claims with
 Kwashiorkor, resulting in overpayments of approximately $13,000 over 3 years.

                                           INTRODUCTION

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 through 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Providence Portland Medical Center (the Hospital)
complied with Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Insurance Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnosis codes established by the International Classification of
Disease, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Providence Portland Medical Center

The Hospital, which is part of Providence Health & Services, is a 483-bed acute-care not-for-
profit hospital located in Portland, Oregon. The Hospital received $3,625,216 in Medicare


The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   1
payments for inpatient hospital claims that included a diagnosis code for Kwashiorkor during
our audit period (CYs 2010 through 2012) based on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,868,197 of Medicare payments to the Hospital for 90 claims that contained
diagnosis code 260 for Kwashiorkor. We did not review managed care claims or claims that
were under separate review. We evaluated compliance with selected Medicare billing
requirements but did not use medical review to determine whether the services were medically
necessary. This report does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
90 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 87 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining three
inpatient claims, the errors resulted in overpayments of $12,516. Hospital officials attributed
these errors to a lack of clarity in the coding guidelines for malnutrition.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor for all 90
claims we reviewed, resulting in overpayments of $12,516. The coding guidelines establish
diagnosis code 260 for Kwashiorkor. However, our review of the documentation provided did


The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   2
not support the billing of this diagnosis code. For 87 of the inpatient claims, the Hospital
included multiple diagnosis codes, at least one of which had a similar or greater severity level.
Therefore, removing diagnosis code 260 or replacing it with a more appropriate diagnosis code
resulted in no change in the DRG payment. However, for the remaining three inpatient claims,
the error resulted in overpayments of $12,516. Hospital officials attributed these errors to a lack
of clarity in the coding guidelines for malnutrition.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $12,516 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

PROVIDENCE PORTLAND MEDICAL CENTER COMMENTS

In written comments, the Hospital agreed with our findings. The Hospital said that it miscoded the
claims because of a lack of clarity in the guidance before 2012 and recommended that CMS further
clarify the various options for coding adult malnutrition.

The Hospital’s comments are included as Appendix B.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,868,197 in Medicare payments to the Hospital for 90 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2012. We did not review managed care claims or claims that were under separate
review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from October 2013 through August 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
        file for the audit period;

    •   selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •   removed all managed care claims and any claims that were previously reviewed by a
        Recovery Audit Contractor;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   repriced each selected claim in order to verify that the original payment by the CMS
        contractor was made correctly;

    •   requested that the Hospital conduct its own review of the 90 claims to determine whether
        the diagnosis code for Kwashiorkor was used correctly;



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   4
    •   reviewed the medical record documentation that the Hospital provided to support other
        malnutrition diagnoses;

    •   discussed the incorrectly coded claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   5
     APPENDIX B: PROVIDENCE PORTLAND MEDICAL CENTER COMMENTS




August 15, 2014




Mr. Leonard Piccari, Audit Manager
Dept. of Health & Human Services
OIG – Office of Audit Services Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106


RE: Medicare Billing With Diagnosis Code 260, Kwashiorkor – Providence Portland Medical
Center, Provider No. 380061

Dear Mr. Piccari,

Thank you for the time your professional staff spent in conference with us on July 1, 2014.
We have received Lynne Pohler’s recent communication regarding the status of our audit.

We would like to also thank you for allowing us to share with you our thorough and
significant interdisciplinary infrastructure used to identify, document and report adult
disease-related malnutrition in our hospital. The data we receive is used to prevent patient
nutritional declines, improve our services, educate our team members and work to improve
patient care in our clinics and hospital. As we discussed, we take attention to malnutrition,
both in treating patients and coding and billing appropriately, very seriously and view doing
so as part of our organizational mission of service to the poor and vulnerable.
We have reviewed the three accounts that were denied and agree with your findings. These
case admissions were from 2010 and 2011 and occurred before the 2012 joint publications
Consensus Statement of the Academy of Nutrition and Dietetics/American Society for
Parenteral and Enteral Nutrition: Characteristics recommended for the identification and
documentation of adult malnutrition (under-nutrition), J Acad Nutr Diet. 2012 May;
112(5):730-8 and JPEN J Parenter Enteral Nutr. 2012 May;36(3):275-83). In late 2011, the
National Center for Health Statistics ICD-9-CM Coding and Coverage Committee clarified
with these organizations that ICD-9 code 260 was a strictly pediatric diagnosis. With
publication, this message was broadly communicated to clinicians. At that time in 2012,
Providence Portland Medical Center stopped using code 260 to describe adult disease-
related malnutrition.
Historically, beginning in the mid-1970’s, ICD-9 Code 260 was embedded and broadcast in
clinical professional literature, research and practice and was renamed in textbooks and
professional literature for adult use, to “adult Kwashiorkor”, “kwashiorkor-like malnutrition”,
“adult hypo-albuminemic malnutrition”, “adult protein malnutrition.” These terms and others
were typically used to reflect ICD-9 code 260 in order to differentiate by name from the
pediatric manifestation, “kwashiorkor”. These adult-focused naming conventions were used

The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   6
across the US and also at Providence Portland Medical Center. During these years, up until
the publications mentioned above in 2011, ICD-9 code 260 was the clearest match to
classify a specific type of metabolic and clinical scenario in malnutrition in both adults and
children. Pediatric use of ICD-9 code 260 was well-known, and because there was no other
code that best fit the unique metabolic presentation in adults, these other terms were used
in an effort to differentiate adult use of the code from pediatric use. As we discussed on the
conference call, we would like to highlight some areas within the area of the diagnosis of
adult malnutrition which would support clinicians in obtaining valuable diagnosis data to
better prevent, recognize, treat and track malnutrition in adults in all care settings:
    1. Harmonization of current clinical presentation criteria with regulatory (RAC, OIG) and
        classification systems (ICD-9/10) would improve medical and clinical understanding,
        diagnosis and alignment of malnutrition diagnoses with regulatory requirements.
        (See diagram below).

    2. Alignment of clinical presentation criteria with ICD classifications (ICD-9 260, 261,
       262, 263 series) would assist health care providers in diagnosing malnutrition when
       present and reduce diagnostic inconsistencies. With the exception of ICD-9 Codes
       262, 263.0, the current definitions are not substantive in nature causing clinicians
       and health care organizations to under diagnose malnutrition.

    3. Altered metabolism expressed in adult malnutrition is not reconciled with ICD-9
       malnutrition codes or with regulatory guidelines. An exception is recent guidance
       between the National Center for Health Statistics ICD-9-CM Coding and Coverage
       Committee and Academy of Nutrition and Dietetics/American Society of Parenteral
       and Enteral Nutrition, published in 2012. This recent guidance considers the severity
       of malnutrition in adults, ICD-9 code 262, 263.0, but does not differentiate the three
       different etiology-based types of adult malnutrition (adult starvation-related or acute
       or chronic-disease related), nor does it clarify the meaning of ICD-9 codes 260, 261,
       263.1, 263.2, 263.8, 263.9. Clarification would support aligned interpretation for
       health systems working to establish appropriate clinical practices, protocols and
       documentation and to comply with regulatory requirements.

    4. Failure to diagnose promptly and treat the less severe types of malnutrition causes
       increasing disease severity in the patient, which then increases utilization of health
       care services and costs of care. Harmonization will improve early identification of
       malnutrition and treatment of patients as well as management of health care costs.

    5.    Harmonization will increase identification and treatment in ambulatory settings
         reducing the number of patients requiring treatment for severe malnutrition who
         require higher levels of care.

    6. Clarification and harmonization of malnutrition will further support much needed
       integration of accurate nutrition terms in SNOMED and HL-7, for electronic health
       record systems and to obtain population data and better manage health care
       resources.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)   7
Relationships that need to harmonize for better patient care and accurate
population data to improve healthcare:

      Clinical
experience and        Recommendations         ICD-9                    RAC criteria          OIG criteria
     practice,          by professional       Classification              used to              used to
   textbooks,          organizations to                                determine if           determine
    reference           their members                                 documentation            coding
    manuals,           and practitioners                                 supports            compliance
modern medical                                                         diagnosis of
understanding                                                          malnutrition
of severity and
     types of
disease-related
malnutrition in
      adults


Thank you for allowing us to forward our specific and broader concerns as we work to better
provide clinical and health care services to our community as part of our Mission.

Sincerely,
Judy K. Olson
Judy K. Olson
Director Revenue Cycle Compliance
Providence Health & Services

cc:     Mindy Taylor
        Department of Legal Affairs
        Providence Health & Services




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00034)         8
